                             NATIONAL SCIENCE FOUNDATION
                                     4201 Wilson Boulevard
                                   ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM


Date:          February 10, 2010

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFA/DIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFA/DGA)

From:          Michael R. Kuklok
               Senior Audit Manager

Subject:       NSF OIG Report Number 10-1-005
               Audit of Effort Reporting System, Washington University in St. Louis

        Attached is the final report prepared by Williams, Adley & Co. LLP, an independent
public accounting firm, on the audit of the payroll distribution and effort reporting system used
by the Washington University in St. Louis (WUSTL) to support salary and wages charged to
NSF grants. The University’s comments to the draft report have been summarized after the
recommendations for each audit finding and our response has been provided to these comments.
The full text of the University’s comments is included as Appendix A to the audit report.

       The audit found that WUSTL’s effort reporting system generally supports salary costs
charged to NSF awards. However, the audit identified some areas of concern that WUSTL
should address for enhanced implementation and oversight of its effort reporting system.
Specifically, improvements were needed over effort report training, documenting the approval of
prospective workload changes, and integrating the effort reports to include all academic,
administrative, and research effort for both sponsored and all other work activities.

         We made audit recommendations to improve the internal controls over the effort
reporting process at WUSTL. Accordingly, we request that your office work with the University
and the cognizant audit agency, the Department of Health and Human Services (DHHS) to
develop a written Corrective Action Plan detailing specific actions taken and/or planned to
address each audit recommendation. Milestone dates should be provided for corrective actions
not yet completed.
        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that WUSTL has adequately addressed the recommendation and proposed corrective actions
have been satisfactorily implemented. Please note that we have sent a copy of the audit report
under separate cover to Mr. Jon D. Crowder of DHHS-OIG.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

         Provided a detailed audit program for the agreed upon procedures review and ensured
          Williams, Adley & Co’s approach and planning for the audit was appropriate;
         Evaluated the qualifications and independence of the auditors;
         Monitored progress of the audit at key points by accompanying Williams, Adley & Co.
          auditors on-site at the grantee;
         Coordinated periodic meetings with Williams, Adley & Co. and OIG management to
          discuss audit progress, findings, and recommendations;
         Reviewed the audit report, prepared by Williams, Adley & Co. to ensure compliance with
          Generally Accepted Government Auditing Standards and the NSF Audit Program; and
         Coordinated issuance of the audit report.

        Williams, Adley & Co. LLP is responsible for the attached audit report on WUSTL’s
payroll distribution and effort reporting system and the conclusions expressed in the audit report.
The NSF OIG does not express an opinion on the audit report’s conclusions.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel free to call me at 703-292-4975 or Mark Kim at 703-292-8531.

Enclosure

cc:       Gilbert Tran, Technical Manager, Office of Management and Budget
          Martha Rubenstein, Acting Chief Financial Officer and Director, BFA/OAD
          Alexander Wynnyk, Branch Chief, BFA/DIAS
          Charles Zeigler, Special Assistant, BFA/DIA




                                                 2
Audit of Effort Reporting System

Washington University in St. Louis

     National Science Foundation 

     Office of Inspector General 



          February 16, 2010 

          NSF OIG 10-1-005 





             Audit Performed by: 

      Williams, Adley & Company, LLP 

       1250 H Street N.W., Suite 1150 

           Washington, DC 20005 

This page intentionally left blank
Executive Summary
       This audit report provides the results of our review of the effort certification system used
by Washington University in St. Louis (WUSTL) to validate salaries and wages charged to
National Science Foundation (NSF) grants. In fiscal year (FY) 2008, WUSTL’s Federally-
sponsored projects totaled approximately $459 million, of which $27 million or 6 percent was
funded by NSF. Of the $27 million, approximately $6.3 million were for labor costs directly
charged to NSF awards. This audit is one in a series of Office of Inspector General (OIG)
reviews of the labor effort distribution systems being conducted at NSF’s top-funded
universities. The review’s main purpose is to determine whether the internal controls over salary
and wage costs claimed on NSF grants were properly managed, accounted for, and monitored.

        Our review disclosed that WUSTL generally has a well-established and sound Federal
grants management program. Our review of 30 sampled employees, with total FY 2008 NSF
salary charges of $833,769, found that the effort reporting system generally supports salary costs
charged to NSF awards. The employee effort reports were generally consistent with the fiscal
year 2008 salary costs of $6.3 million directly charged to NSF grants. Notable accomplishments
at WUSTL include timely certifications of labor effort reports and strong support by
management and those involved with the effort reporting process to develop accurate effort
reports that meet Federal and University guidelines.

        However, the audit identified some areas of concern that WUSTL should address for
enhanced implementation and oversight of its effort reporting system. Specifically, during the
period under audit, the University did not require effort report training for all campuses.
Although WUSTL had developed excellent effort reporting training materials, in fiscal year 2008
the university required only its medical school campus personnel to attend training. During the
audit interviews, 29 of the 30 sampled employees1 indicated that they did not receive recent
training in this area. Although WUSTL officials commented that training is not required under
the federal guidelines, nonetheless, during fiscal year 2009 they expanded the required training
to include all faculty involved in the effort report process.

        In addition, WUSTL’s effort reporting system was not fully integrated for 9 of 30
sampled personnel to include all academic, administrative, and research effort for both sponsored
and all other work activities, and it recorded effort for individual employees that sometimes
included entries exceeding 100 percent (although we did not see evidence that the net effort for
any individual ever exceeded 100 percent). This issue should be resolved with the
implementation of the new electronic Personnel Activity Reporting System (ePARS) in January
2009. Finally, WUSTL’s policies could provide clearer guidance on how to process significant
prospective changes to salary distribution.

        Although no significant deficiencies were identified during the audit, certain issues, if not
effectively addressed, could lead to internal control weaknesses and impact the reliability of the
salary portions of WUSTL’s salaries and wages charged to both NSF sponsored projects as well
as the salary portion of other Federal agency funding.

1
    25 of the 30 sampled employees were from the non-medical campus (Danforth Campus)


                                                      i
        WUSTL’s oversight of the effort reporting system was generally well established through
daily oversight by the Sponsored Projects Accounting Office and periodic reviews by the
Compliance Office. The ongoing effort reporting audits by the Compliance Office are done on a
school and department basis and it would be beneficial to periodically perform audits of the
entire effort reporting process, particularly of related polices.

         During the course of our audit, WUSTL has addressed most of our concerns and updated
its policies and procedures to enhance its compliance with Federal requirements. As a result of
the positive steps undertaken by WUSTL, our recommendations are primarily directed at
monitoring the enacted changes to ensure effective implementation. We also recommended that
WUSTL further update its policies and procedures to address other issues not yet addressed by
the University.

        A draft report requesting comments on the audit findings and recommendations was
issued to WUSTL. The University generally concurred with the recommendations with the
exception that additional controls were needed over significant prospective changes. In
recognition of the areas of concern identified in the report, WUSTL has revised or plans to revise
certain WUSTL policies and procedures to address opportunities for improvement in effort
reporting.

       WUSTL’s responses, once fully implemented, should address most of the audit
recommendations. NSF should work with the cognizant audit agency and/or WUSTL to ensure
the University develops an acceptable corrective action plan to resolve each audit
recommendation. We have summarized WUSTL’s responses and provided our comments after
each recommendation in the report. The University’s complete response to the draft report is
included as Appendix A.




                                                ii
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                   i


INTRODUCTION

  Background                                                        1
  Objectives, Scope, and Methodology                                2


FINDING AND RECOMMENDATIONS

  Improvements Needed to Ensure Reliable Effort Reporting           5


APPENDIX

  Appendix A:      WUSTL Response to the Audit Report               11


ACRONYMS

   NSF             National Science Foundation
   PI              Principal Investigator
   OIG             Office of Inspector General
   OMB             U.S. Office of Management and Budget
   PARS            Personnel Activity Reporting System
   ePARS           Electronic Personnel Activity Reporting System
   SPA             Sponsored Projects Accounting
   RO              Research Office
   OGC             Office of Grants & Contracts
                                       INTRODUCTION 


BACKGROUND

        Approximately one third of the National Science Foundation (NSF) award funds are
provided for salaries and wages, amounting to about $1.3 billion annually at universities. Also,
in recent years, there have been several civil settlements involving overcharges of labor costs to
Federal grants amounting to millions of dollars at several major universities, including some
funded by NSF. Because of these legal actions and material amounts of labor costs paid from
NSF awards, the Office of Inspector General (OIG) is undertaking a series of reviews of the
labor effort distribution systems at NSF’s top-funded universities in order to assess the adequacy
of the internal controls to ensure salary and wage costs claimed on NSF grants are properly
managed, accounted for, and monitored. This audit, involving Washington University in St.
Louis (WUSTL) is one of the planned reviews of such labor effort distribution systems.

       WUSTL is an independent university known internationally for excellence in teaching
and research and for the quality of its faculty and student body. Founded in 1853, the University
ranks among the nation's leaders in higher education. Its undergraduate, graduate, and
professional programs are highly regarded. Twenty-two Nobel laureates have been associated
with the University. The Faculty has received many honors, including major literary prizes;
national and international fellowships; major awards for teaching, research, and service; and
honors from governments of other nations. Instructional faculty in all schools totals 3,170
including both full-time and adjunct faculty.

        The University is a major research institution and derives substantial funding from
sponsored research funding, student tuition, and other government sources. For FY 2008, the
University received $548.3 million in sponsored awards, which included approximately $459
million, or 84 percent, in research and development grants from the Federal government.
Approximately $27 million, or 6 percent, of the Federally-sponsored research and development
project awards were provided by NSF.

        In order to manage the significant number of grants it receives, WUSTL has established
three primary offices associated with the Federal grants management process.

Research Office (RO) - reviews, approves, and provides institutional signature for the Danforth
Campus (non-Medical School) grant administration and university-wide contract administration.
The RO functions as a liaison between sponsors and the principal investigators in matters of
policy, procedures, and regulations and provides communication, education, and training on
proposals, awards, and contracts to the WUSTL research community. The RO reports to the Vice
Chancellor for Research

Office of Grants & Contracts (G&C) reviews and provides institutional signature for WUSTL
School of Medicine proposals and awards. G&C performs the same functions as RO for the
Medical School. G&C reports to the Vice Chancellor for Research




                                                1

Sponsored Projects Accounting (SPA) - provides financial stewardship, policy interpretation and
compliance assurance to the University's research community and the sponsoring agencies. SPA
reports to the Vice Chancellor of Finance.


OBJECTIVES, SCOPE AND METHODOLOGY

        Audit Objectives. Our audit objectives were: (a) to evaluate whether WUSTL’s internal
controls are adequate to properly manage, account for, monitor, and report salary and wage costs
on NSF grants in accordance with OMB and NSF grant requirements and (b) to determine if
salaries and wages charged to NSF awards are allowable, allocable and reasonable in accordance
with Federal cost principles and NSF award terms and conditions.

        Scope and Methodology. The audit focused on WUSTL’s effort reporting system, and
accordingly reviewed internal controls for ensuring that labor costs charged to NSF (i) were
actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely recorded and
charged to NSF, and (iv) were for allowable and allocable-type activities as required by Federal
and NSF requirements. In addition, we evaluated if the level of PI effort pledged in grant
proposal and award documents was actually contributed by the faculty member to accomplish
award objectives.
         To address each of the control objectives, the NSF-OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The use of
statistical tools and methodology will enable projecting our audit results to the entire population
of universities to be included in the planned reviews of payroll distribution systems nationwide.
However, due to the small statistical sample size of 30 employees tested, we are not able to make
any projections to the total WUSTL population of labor costs charged to NSF grants.
Specifically, the FY 2008 salary and wage costs for the 30 sample employees tested amounted to
$833,769 and were supported by 80 PARS (Personnel Activity Reporting System) effort reports.

        We interviewed key WUSTL officials, and reviewed the organization structure, and
written policies and procedures to assess the “attitude” or “tone at the top” toward grants
management and compliance in general as it affects effort reporting.
        We compared WUSTL’s policies and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards and interviewed personnel involved in effort reporting
activities to gain an understanding of the controls in place to ensure salary and wages charged to
NSF awards were reasonable and allowable. For each statistically selected salary record, we
obtained the following documentation to determine whether labor costs at WUSTL charged to
NSF awards met the control objectives:

       	 Effort reports documenting 100 percent of each employee’s compensation allocated
          to sponsored projects for each reporting period.

       	 Appointment letters or other documents supporting the approved annual salary for
          employees.




                                                2

       	 Salary Distribution Reports (SDR) detailing the actual salary and wages charged to
          sponsored projects and other activities for each employee during each reporting
          period.

       	 Award documents to determine whether the grant had any terms and conditions that
          would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on the effort reports by interviewing the 30
sampled employees. We inquired whether (a) the labor charges documented were actually
incurred on projects and activities, (b) the approximate percentage of effort actually worked on
each sponsored project and/or activity was reasonably consistent with NSF labor charges, and (c)
the type of work performed on NSF projects was generally consistent with the scope of the
awards. We also interviewed administrative officials in the Academic Departments of the
sampled employees to determine procedures for processing and monitoring employee salary
charges to Federal grants. Additionally, we interviewed selected PIs to determine the number of
projects they were responsible for and whether they had ever charged grants in the summer for
work performed in the academic year.

        To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort. We
reviewed award documents for all Federal grants that a faculty member worked on during FY
2008 to determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we determined
whether and how WUSTL tracked and documented PI effort on sponsored projects when no
faculty salary support was requested or reimbursed by the Federal Government.

        To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries and
wages paid to the amounts recorded in the SDR for each individual in our selected sample. We
recalculated salary and wage costs charged to NSF projects by using the salary shown on
supporting documentation and apportioning it by the period of time represented on the effort
reports. We also reviewed labor transactions to determine whether WUSTL followed Federal,
NSF, and University requirements on charging labor costs to NSF projects.

       The audit determined whether WUSTL officials approved and signed effort reports in a
timely manner by comparing the date the effort reporting period ended to the date the reports
were approved and signed. Timeliness was based on WUSTL’s internal policy.

       Finally, we reviewed prior audit reports on WUSTL’s Federal grants management
program performed by OMB Circular A-133 auditors and WUSTL’s internal auditors to
determine whether there were any audit findings and recommendations on labor effort reporting.
Specifically, we interviewed the executive director of compliance and internal audit and the
compliance office director and reviewed their reports, as needed, to gain an understanding of the
scope and procedures used in any audits of WUSTL’s payroll distribution reporting system
and/or management of labor costs charged to Federal projects. We reviewed the A-133 audit


                                                3

working papers to ascertain the actual audit scope and procedures used by the auditors in order to
(i) preclude any duplicative audit work and (ii) to determine the specific work performed on the
labor effort reporting system. Accordingly, we met with WUSTL’s A-133 auditors to discuss
their overall audit scope and procedures used for reviewing salaries and wages charged to
Federal awards and the labor effort reporting system.

       We performed our on-site audit work at the WUSTL campus during a two-week period in
March 2009, and an additional two-week period in May 2009. We completed the remainder of
the audit work through phone interviews, emails, and documentation requests through October
2009. We were engaged to perform the above audit objectives by the NSF-OIG, and the audit
was conducted in accordance with the Comptroller General’s Government Auditing Standards
and accordingly included such tests of accounting records and other auditing procedures, as we
considered necessary, to fully address the audit objectives.




                                                4

FINDING AND RECOMMENDATIONS 


Enhancements to Effort Reporting Process

OMB Requirements and University Policy for Labor Effort Reporting

        OMB Circular A-21, Cost Principles for Educational Institutions, requires certification of
labor effort/activity contributed by employees on Federal awards. Specifically, paragraph
J10.b.(2)(a) states that a payroll distribution system must “….reasonably reflect the activity for
which the employee is compensated by the institution; and encompass both sponsored and all
other activities on an integrated basis”. Such a system must provide for after-the-fact
confirmation of employee activity by a responsible person with “suitable means of verification
that the work was performed.” Therefore, the University’s effort reports should reflect 100
percent of an employee’s sponsored and non-sponsored activities, including instructional,
research, administrative, and other institutional activities. Additionally, paragraph J10.b.(2)(f)
states that “The system will provide for independent internal evaluation to ensure the system's
effectiveness and compliance with the above standards.”

       Consistent with the Circular A-21 requirement for “sound business management
practices,” OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organization,2 requires entities receiving Federal awards to establish and maintain internal
controls that are designed to reasonably ensure compliance with Federal laws, regulations, and
program compliance. Further, OMB Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, defines internal controls as a “process effected by an entity’s
management and personnel, designed to provide reasonable assurance regarding the achievement
of objectives in the following categories: (1) Effectiveness and efficiency of operations; (2)
Reliability of financial reporting; and (3) Compliance with applicable laws and regulations.”

        Furthermore, Circular A-21 recognizes that each institution “should employ sound
management practices” in applying the Federal cost principles for charging costs on sponsored
projects. Also, Circular A-110, section .21 provides that recipients are responsible for written
procedures that ensure the costs charged to a sponsored agreement are allowable, allocable, and
reasonable under these cost principles and “must provide for adequate documentation to support
costs charged to sponsored agreements.”3 Thus, WUSTL is required to have written procedures
to ensure costs charged to sponsored projects are in full compliance with Federal cost principles
and the terms and conditions of the sponsored agreement.




2
  Section .21 of OMB Circular A-110, requires that a grantee’s financial management system provide for “Effective
control over and accountability for all funds, property, and assets. . . written procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of the applicable cost
principles and terms and conditions of the award.”
3
  Paragraphs C.4.d. (1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for Educational Institutions.


                                                         5

WUSTL’s Effort Reporting System

       WUSTL utilized a paper-based PARS effort reports during fiscal year 2008 and prior
years. Starting in January 2009, the University migrated towards a new electronic Personnel
Activity Reporting System (ePARS). WUSTL implemented a well-established effort reporting
system that substantially supported payroll costs charged to NSF awards. However, there were
some internal control areas that could be enhanced to increase the reliability of the process to
substantiate the level of effort associated with salary costs. Specifically, WUSTL’s policies and
procedures related to the effort reporting training program and other areas should be expanded.

Effort Reporting Areas of Improvement

        Effort Report Training Was Not Required for All WUSTL Faculty and Staff. Although
PIs and department administrative officials play a key role in the effort reporting process,
WUSTL did not have a university-wide policy requiring effort reporting training for all principal
investigators, department heads, business administrators and other persons involved in the effort
reporting process. During audit interviews, 29 of the 30 sampled employees indicated that they
did not receive recent training in this area. While the audit did not identify any specific
deficiencies concerning labor effort reporting, we have a concern that current and future
personnel in key reporting roles should be kept sufficiently aware of reporting requirements.

        To its credit, WUSTL had developed excellent training material, both web-based and live
instructional training that was very comprehensive and covered all the key areas in effort
reporting process. However, during fiscal year 2008 WUSTL’s policy required mandatory
training only for the Medical School faculty. Although WUSTL officials implemented required
effort report training for the Danforth campus faculty in FY 2009, they stated that OMB A-21
did not contain specific requirements as to the exact nature of instructions and training. We
agree that OMB A-21 and related circulars do not require mandatory training, but the Circulars
were not intended to provide specific requirements, but rather overarching guidance for the
variety of institutions they cover. Institutions are expected to identify and employ the necessary
controls to fully implement the guidance. As such, we believe that mandatory training of key
personnel in the effort reporting process is critical to the reliability of the effort reporting
program.

        Effort Reports were not Integrated. Prior to January 2009, WUSTL’s PARS generated
paper-based effort reports for only the periods that the individual worked on sponsored projects.4
For 9 of 80 effort reports that we reviewed, related to the 30 sample employees, the reports did
not present the salary distribution percentages for the entire effort reporting period, only for the
months in which some salary was charged to a sponsored project. The effort expended on the
non-sponsored activities during the reporting period was not always reflected on the effort
reports. Therefore, the PARS did not include both sponsored and all other activities on an
integrated basis to reflect 100 percent of the employee’s activities during the full effort reporting
period. As an example, a PI’s semi-annual effort report showed the reporting period as July to
December 2007, and his activity period as July 2007, because he worked on sponsored activity

4
 All Medical School faculty certify their effort on a semi-annual basis, regardless of their involvement with
sponsored projects (i.e., they treat patients).


                                                          6

only in July 2007 during this reporting period. His effort report also showed 100 percent effort
on the sponsored activity for the month of July since he devoted 100 percent of his effort to this
one activity during this month. However, this individual expended effort on non-sponsored
activities between July to December, but his effort on the non-sponsored activities during the
reporting period was not reflected on his effort report. If the non-sponsored effort had been
properly reflected, the effort percentages would have been distributed 17 percent to the
sponsored activity and 83 percent to non-sponsored activity.

        In addition, Washington’s PARS did not properly record labor effort percentages in the
effort reports for two of three cost transfers tested. When Washington initiated these cost
transfers, the PARS did not recalculate the correct percentages of effort for a particular account
to record on the effort report. Instead, the system merely added the cost transfer-in as additional
effort in excess of 100 percent for one account and treated the cost transfer-out as a negative
effort on the other account. Therefore, there were some accounts/activities with effort that
exceeded 100 percent and other accounts/activities with negative effort that exceeded 100
percent. In one example, a certified effort report recorded negative 400 percent effort to a non-
sponsored university account/activity and 500 percent effort to a sponsored NSF account/
activity. Effort reports should reflect no more than 100 percent effort on an individual account
and should not show negative effort on an individual account. In another example, a certified
quarterly effort report recorded 50 percent effort to a non-NSF sponsored account/activity and a
100 percent effort to a NSF activity code and a negative 50 percent to a university default
account. This resulted in 150 percent effort between the two sponsored accounts/activities that
was offset by a negative 50 percent effort on the University account. As evidenced by these two
examples, it is difficult to determine the level of effort expended on these specific projects since
the total effort did not always result in 100 percent.

        Based on our initial review of the new ePARS, the system appears to have resolved both
the integration and the cost transfer issues identified above. Therefore, the university should
periodically evaluate the new ePARS’ performance to ensure it is working as intended and that
this issue does not resurface.

        Adequate Guidance Not Provided for Significant Prospective Changes – Although
WUSTL’s policies require employees to revise the effort report when there are significant
changes (also known as prospective changes to the effort report), the University did not provide
detailed written guidance about the process required for identifying significant prospective
changes or the written justification and approval required for entering those changes into the
payroll distribution system. Rather, the university relied on various departments to make their
own determinations and entries regarding significant changes. Some departments processed
changes based solely on verbal notifications from PIs and therefore, no written documentation of
justification and approval was maintained. In other cases, departments relied on informal e-
mails to document the request for change. WUSTL did not have a policy to print or maintain
such e-mails to support the changes entered into the system.




                                                 7

Internal Evaluation of Effort Reporting

        The lack of a comprehensive internal audit evaluation of Washington's effort reporting
system, in part, may have led to these areas of improvement not being detected earlier. Although
WUSTL had established an effective audit process through its Compliance Office, the audits
reviewed did not cover all aspects of the effort reporting process. Our review of three recent
audits of the effort reporting system that were conducted by the University’s Compliance Office
found that the scope of these audits covered important areas related to effort reporting such as
allowability of expenditures charged to federal awards, certifications, and cost transfers.
However, the audits did not look at other important aspects of the overall effort reporting
processes. For example, there was no review of the policies and procedures itself and internal
controls over the interaction between the University's Departments of Human Resources, Payroll,
Sponsored Projects Accounting, the Research Office and Departmental Business Managers. It
was noted that the Internal Audit Department does conduct system-wide audits of internal
controls which does partially address these other areas.

        Despite the fact that the Compliance Office’s effort reporting audits were not fully
comprehensive, we commend the University and Compliance Office for targeting certain key
areas similar to areas that we reviewed in our audit. Equally important, when the audits
identified problems with effort reporting, the University took appropriate corrective action.

       During the audit period, WUSTL took actions that should correct most of the areas of
concern identified above when fully implemented. Therefore, the recommendations will
primarily address monitoring the actions to ensure effective implementation of the actions.


Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

   1.	 Develop and implement clear written policies and procedures:

           a.	 For monitoring and tracking the mandatory training policy implemented in fiscal
               year 2009, to ensure it is functioning as management intended and all persons
               involved in federal grants and effort reporting are receiving appropriate training
               and refresher courses as necessary.

           WUSTL’s Response

           As a result of the implementation of the new electronic effort reporting system
           (ePARS), the University is in the process of revising its effort reporting policies and
           procedures. A section regarding required and available training will be added to the
           document and the University will continue to refresh, expand, and monitor their
           training program as necessary to enhance compliance.


                                                 8

Auditors’ Comments

Once implemented, WUSTL’s actions should address our audit recommendation.


b.	 For periodically evaluating the new ePARS’ performance to ensure effort reports
    document 100 percent of each employee’s compensation allocated to sponsored
    and non-sponsored projects for each reporting period.

WUSTL’s Response

The ePARS system that was implemented in January 2009 maintains 100% of the
base salary data for each individual. The employee is required to certify his/her
salary distribution percentages for all months within the certification period. This
methodology is documented in the ePARS training materials, and verification of this
full coverage will be included in the scope of periodic audits and compliance reviews
of selected departments and units.

Auditors’ Comments

Once implemented, WUSTL’s actions should address our audit recommendation.


c.	 That provide guidance on how to identify and process significant changes,
    including proper approval and what documentation is required to be maintained
    by verifying officials.

WUSTL’s Response

WUSTL maintains an on-line electronic payroll system that is designed to meet the
needs of a very diverse and decentralized academic environment. WUSTL believes
that policies and procedures and training materials regarding the payroll system
provide sufficient guidance to staff and approving officials and that additional
prospective documentation requirements are not necessary, in part because all effort
is certified by or on behalf of each individual after the work period.

Auditors’ Comments

WUSTL disagreed with our recommendation. However, based upon our review of
the payroll and effort reporting process documentation provided by WUSTL,
interviews with university personnel, and our understanding of the requirements of
OMB Circular A-21, we believe that WUSTL’s diverse and decentralized
environment would benefit from explicit guidance to enhance this process.




                                    9

d.	 For including periodic audits of the University’s overall effort reporting
    processes, policies and related internal controls in the Compliance Office’s audit
    plans.

WUSTL’s Response

WUSTL’s Compliance Office will enhance the effort reporting audit work it currently
performs in schools and departments by including periodic audits of the University’s
overall effort reporting processes, policies, and related internal controls.

Auditors’ Comments

Once implemented, WUSTL’s actions should address our audit recommendation.




                                    10 

       APPENDIX A   





11 

                                                                                                     APPENDIX A   





wusn Response to DRAFT Report
Pa,e 2




      WUSTl 's Respon se

      Background; WUSTl ha~ been committed to provldln, su ffiCient trai ning In all resea rch
      compliance matters. OMB Circular A·21 and the NSF Proposal and AWird Policies and
      Pr ocedure Guide do not contain specific requirements as to the e~act nature of Inmuctlons and
      training, t herefore, WUSTL has created and maintained the effort reportln& tralnln& pros;ram In
      recent years as follows:
      •    In ~cember 2004, Sponsored Projects Accounting and Research Education Implemented a
           sl. part training prOl",m for department, schOOl .nd university administrators that focused
           on flnandal management of sponsored projHu. This t,,'nlng prOiram continues to be
           offered on a semi·annual basis to emplovees on both campuses, and it Includes an entire
           session devoted to effort reportln& and salary mlnagement.

      •    "Flnanciil Awareness" trainlng_ whkh Included effort rrportlnglssues - Wit provided to
           faculty In 2005.

           The WUSTlSc:hool of Medicine implemented i m;ond;otory Effort Reportln, Eduatlon
           Prosram for Facuity in November 2005, and this "me effort reportl", tralnln8 WiS iIY.il.ble
           to all Danforth faculty and to all staff on a voluntary bilsis thereafter.

           The University decided to adopt a policy to require mandnory completion of effort
           reportina trai nina by the Danforth I"ully 15 poirt of the ePARS Implementation In fY 2009
           befOl"e the NSF audit began, ilnd as a proact ive st ep consistent with the Un~rsity's
           commitment to compliant!! regarding the m,lnagement of federal ,ranIS.

           Individuals who complete effort reportlngtflllnins. as well as other rHurch related
           training, ue tracked in. databilse maintained by Office of the VIce Chan'ellOl" lor Research.

           WUSTl maintains that its effort reporting Instructions and Ifalnlng prosram were sufficient
           and fully compliant with the applicable federal &uldellnes durln& Ihe ludil period.

      Slltci", Response; As a result of the Implement.tlon 01 Ihe new elHlronlc effort reporting
      system {ePARSj during 2009, the UniverSity Is In the process of revising the entire set of effort
      reporting policies and procedures. A secllon regarding required and available training wi ll be
      added to the document, and we will continue to refresh, ","pOInd and monitor ourlralnlng
      program as necessary to enhance compliance.



      b.   For prr/odlcolly evo/lJOtinp the newePARS' prr/ormonce to ~flJur~ effort r?ports dotum~nt
           100 ptrc~nt of each employee's comprnsotion allocated to spotIsored and nOf1·sponSOl~d
           proJ~rt$ for ~adJ r~portlnp prriod.




                                                  12
                                                                                                           APPENDIX A   





w u sn Respo nse t o DRAFT Report
Pale l




       WU STl 's RU DOnSC
       Backsround: WUSTl m~lnt~lns that the effort reports generated during the audit period were
       sufficient and fully compliant with t he applluble federal guidelines. wusn would also li~e to
       clarify that the Iinal statement In the paragraph regarding effort percenUges related to cost
       transfers Is not accu rate. The certified effort reports that were provided .nd reviewed by the
       auditors displayed total net effort for ali activities IS a 100% figure, notwithstanding that for two
       Individuals there were larger positive and negative .mounts denoted for Individual ilccounts.

       Specific ReSPOnse: The ePARS system that was Implemented In January 2009 maintains 100% of
       Ihe ~se sillary data for each individual. The employee Is required to certify hls/her salary
       distribution percentilges for all months within the certiflciltlon period. This melhodoloBv Is
       documented In the ePARS I.ainlng malerlals_ and verification olthls full coverilge will be
       Induded In the scope of periodiC iludits ilnd compll.nce reviews of selected departments ilnd
       units.




       c_ ThDt provide gu;donu on how to khnt;/y olld process JlgnlflCont change$. Inc/ud;ng pro,,"
           opproval ond whot documentotkm ;f required to be moinlolned by wrlfyfng o/flclals.


       WUID's Response
       Iljdaroynd: Documentation and the related approvills for the sill ..ry dlWibutlon chlnges
       reviewed during the ~udit were provided to Ihe iludit leam, iln d wusn millntalns thatthl:5 data
       WllS sufficient and fully compliant with the applluble feder.1 guidelines.

       Sllfclflc Response: WUSTl malntalns.n on-line electronic Pilyroll system Ihat Is designed to the
       meet the needs of a very diverse and decentraliled academic environment. Prospe<:tlve sal.ry
       distribution changes are fully documenled wllhln the payroll system. Each dlSlflbutlon
       modification Is routed 'or various on-line approvals within the ilcade mlc departments ilnd/or
       schools, as necessary. We believe policies and procedures and training materials regarding th e
       payroll system provide sufficient guidance to staff and approving officials, and that additional
       prospectTve documentation requirements are not necesslry, In p.rt benuse all effort Is certified
       by oron behalf of each indivldu.1 after the work period.




       d.   For Including ~rlodic oudits of the Unlwrslty's over(lJl tf/f.II"l rtpa.llng p.ocesses, pal/cles
            ond rrlulrd ;nlernol controls In the CompHonee Office'S oudit pl(l/lf.




                                                     13
       APPENDIX A   





14 

